            Audit Report



Title XVI Deceased Recipients Who
Do Not Have Death Information on
           the Numident




       A-09-12-22132 | May 2013
MEMORANDUM


Date:      May 3, 2013                                                        Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident
           (A-09-12-22132)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration had adequate controls to ensure death information
           for Title XVI deceased recipients was recorded on the Numident.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Title XVI Deceased Recipients Who Do Not Have Death
Information on the Numident
A-09-12-22132
May 2013                                                                 Office of Audit Report Summary

Objective                                 Our Findings

To determine whether the Social           SSA needs to improve its controls to ensure it records Title XVI
Security Administration (SSA) had         recipients' death information on the Numident. Specifically, we
adequate controls to ensure death         determined that as many as
information for Title XVI deceased
recipients was recorded on the            •   182,165 deceased recipients' deaths were not on the DMF, and
Numident.
                                          •   937 deceased recipients had earnings on the Master Earnings
Background                                    File for Calendar Year 2011 that were recorded 1 or more years
                                              after their deaths.
To identify and prevent erroneous
payments to deceased recipients,          We also found that 92 employers made 113 E-Verify inquiries
SSA’s Death Alert, Control and            for 78 deceased recipients and did not receive any indication from
Update System matches reports of          SSA that these individuals were deceased. In addition, we found
death received from Federal, State,       that HAVV requests for 78 deceased recipients indicated they were
and local agencies against its Master     not deceased. This would not have prevented an individual from
Beneficiary (MBR) and Supplemental        voting under a deceased recipient’s identity.
Security Records (SSR). SSA records
the death information on its Numident,    Generally, the deaths were not on the Numident because the
an electronic file that contains          recipients' PII on the MBR, SSR, or death report did not match
personally identifiable information       the recipients' PII on the Numident.
(PII) for each person issued a Social
Security number. SSA also creates a       Our Recommendations
record of death information called the
                                          We recommended that SSA:
Death Master File (DMF). SSA uses
death information during its Annual       1. Analyze its death processing systems to ensure it records death
Wage Reporting process to determine          information on the Numident and determine whether it can
whether wage or self-employment              efficiently correct any of the 182,165 Title XVI recipient
reports are erroneous. In addition,          records identified by our audit.
E-Verify uses death information to
allow employers to determine newly        2. Develop a cost-effective method for identifying deceased
hired employees’ eligibility to work         recipients who have death information on the SSR but not on
in the United States. Finally, the           the Numident. This could involve periodic matches between
Help America Vote Verification               the SSR and Numident to detect and correct missing death
(HAVV) system allows States to verify        information.
information for newly registered voters
with SSA’s Numident.                      SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Missing Numident Death Information for Deceased Recipients ...............................................3
           Missing Death Information Reduces the Effectiveness of the DMF ...................................3
           Missing Death Information Reduces the Effectiveness of SSA’s Earnings After Death
                   Program .................................................................................................................4
           Missing Death Information Reduces the Effectiveness of E-Verify ...................................6
           Missing Death Information Reduces the Effectiveness of HAVV System .........................6
     Reasons for Missing Numident Death Information ...................................................................7
           Identifying Information Did Not Match ..............................................................................7
           Identifying Information Matched Within SSA’s Accepted Tolerances ...............................7
           Analysis of Recent Deaths Not Recorded on the Numident ................................................8
Conclusions ......................................................................................................................................8
Recommendations ............................................................................................................................9
Agency Comments ...........................................................................................................................9
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)
ABBREVIATIONS
C.F.R.              Code of Federal Regulations

DACUS               Death Alert, Control and Update System

DMF                 Death Master File

EAD                 Earnings After Death

HAVV                Help America Vote Verification

MBR                 Master Beneficiary Record

MEF                 Master Earnings File

MVA                 Motor Vehicle Administration

OIG                 Office of the Inspector General

PII                 Personally Identifiable Information

POMS                Program Operations Manual System

Pub. L. No.         Public Law Number

SSA                 Social Security Administration

SSN                 Social Security Number

SSR                 Supplemental Security Record

TNC                 Tentative Nonconfirmation

U.S.C.              United States Code




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) had adequate
controls to ensure death information for Title XVI deceased recipients was recorded on the
Numident.

BACKGROUND
SSA administers the Supplemental Security Income program under Title XVI of the Social
Security Act. This program provides payments to financially needy individuals who are aged,
blind, or disabled. 1 Under Title XVI, payments are not payable for the month after death or
later. 2 Upon receipt of a death report, SSA terminates the decedent’s payments and initiates
recovery for payments issued after death. 3

To identify and prevent erroneous payments to deceased recipients, SSA’s Death Alert, Control
and Update System (DACUS) matches reports of death received from Federal, State, and local
agencies against SSA’s Master Beneficiary (MBR) and Supplemental Security Records (SSR). 4
DACUS also processes death reports from internal sources (for example, the SSR). 5 Finally,
SSA records the death information processed by DACUS on the Numident, an electronic file
that contains personally identifiable information (PII) 6 for each person issued a Social Security
number (SSN). 7

SSA uses death information from the Numident to create a record of death information called
the Death Master File (DMF). 8 SSA also uses death information from the Numident during its
Annual Wage Reporting process to determine whether wage or self-employment reports are
erroneous. In addition, E-Verify, an Internet-based system, uses death information from the
Numident to allow employers to determine newly hired employees’ eligibility to work in the



1
    Social Security Act, § 1601 et seq., 42 U.S.C. § 1381 et seq.; 20 C.F.R. § 416.101 et seq.
2
    SSA, POMS, SI 02301.250 (December 2, 2004).
3
    SSA, POMS, SI 02301.250.A (December 2, 2004) and SI 02220.053 (August 12, 2009).
4
 SSA, POMS, GN 02602.060 (May 13, 2011). The MBR is an electronic record of all Title II beneficiaries. The
SSR is an electronic record of all Title XVI recipients.
5
    Social Security Act, § 205(r), 42 U.S.C. § 405(r); SSA, POMS, GN 02602.060 (May 13, 2011).
6
 PII is any information that can be used to distinguish or trace an individual’s identity, such as name, SSN, date and
place of birth, or mother’s maiden name.
7
    SSA, POMS, GN 02602.060 (May 13, 2011)
8
    SSA, POMS, GN 02602.060.B.1 (May 13, 2011).




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)                      1
United States. Finally, the Help America Vote Verification (HAVV) system allows States to
verify the accuracy of newly registered voters’ names and dates of birth, as well as the last four
digits of their SSNs, with SSA’s Numident. 9

In a July 2012 audit, 10 we reported that SSA did not record death information on the Numident
for approximately 1.2 million deceased Title II beneficiaries. As a result, we found that as many
as (1) 1.2 million deceased beneficiaries were not on the DMF, (2) 681 deceased beneficiaries
had earnings on the Master Earnings File (MEF) that were recorded 1 or more years after their
deaths, and (3) 23 employers made 30 E-Verify inquiries for 23 deceased beneficiaries and did
not receive any indication from SSA these individuals were deceased.

For our current audit, we identified 182,165 11 deceased Title XVI recipients who had a date of
death on the SSR but did not have death information on the Numident as of June 2012
(see Appendix A).

RESULTS OF REVIEW
SSA needs to improve its controls to ensure it records Title XVI recipients’ death information on
the Numident. Specifically, we determined that as many as

•    182,165 deceased recipients’ deaths were not on the DMF, and

•    937 deceased recipients had earnings on the MEF for Calendar Year 2011 that were recorded
     1 or more years after their deaths (see Appendix B).

We also found that 92 employers made 113 E-Verify inquiries for 78 deceased recipients and did
not receive any indication from SSA these individuals were deceased. In addition, we found that
HAVV requests for 78 deceased recipients indicated they were not deceased. This would not
have prevented an individual from voting under a deceased recipient’s identity.

Generally, the deaths were not on the Numident because the recipients’ PII on the MBR, SSR, or
death report did not match the recipients’ PII on the Numident.




9
 Help America Vote Act of 2002, Pub. L. No. 107-252, Title III, § 303, 116 Stat. 1666, 1711 (October 29, 2002);
Social Security Act, § 205(r)(8); 42 U.S.C. § 405(r)(8).
10
  SSA, OIG, Title II Deceased Beneficiaries Who Do Not Have Death Information on the Numident
(A-09-11-21171), July 9, 2012.
11
  The 182,165 recipients died between 1980 and 2011. The maximum number of deaths by year was 12,478 in
1996, and the minimum number was 1,911 in 1986.




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)                   2
Missing Numident Death Information for Deceased Recipients
From the population of 182,165 deceased Title XVI recipients whose payments had been
terminated for death on the SSR, we selected a random sample of 50 for review. Our review
disclosed that SSA had terminated the payments for all 50 recipients; however, the death
information was not on the Numident. On average, the 50 recipients had been deceased for
16.7 years. 12 The minimum time since their deaths was 2.8 years, and the maximum was
30.8 years. Based on our sample results, we expect the death information for most, if not all,
of these 182,165 deceased recipients was not on the Numident (see Appendix B).

Missing Death Information Reduces the Effectiveness of the DMF
Upon receipt of a valid death report, SSA should terminate the decedent’s payments and record
his/her date of death on the Numident. SSA then uses the death information from the Numident
to create the DMF. 13 The DMF includes the decedent’s SSN; dates of birth and death; and first,
middle, and last names. SSA provides the DMF to the Department of Commerce’s National
Technical Information Service, which sells the DMF data to public and private customers who
can purchase the DMF and subscribe to periodic updates for an additional cost. 14

Various Federal entities rely on the DMF to detect unreported deaths and verify the accuracy of
reported deaths. This includes four benefit-paying agencies—the Railroad Retirement Board,
Department of Defense, Office of Personnel Management, and Department of Veterans Affairs.
SSA also provides the DMF to the Centers for Medicare and Medicaid Services, Government
Accountability Office, and Internal Revenue Service. Private industry customers (including
banks, hospitals, universities, and insurance companies) purchase the DMF to verify death and
prevent fraud. Finally, in June 2010, the President directed Federal agencies to ensure they
thoroughly review available databases with relevant information on eligibility before they release
any Federal funds. At a minimum, agencies shall, before payment and award, check the existing
databases, including SSA’s DMF, to verify eligibility. 15




12
     The mean was 16.7 years. The median was 16.2 years.
13
     SSA, POMS, GN 02602.060.B.1 (May 13, 2011).
14
  http://www.ntis.gov/products/ssa-dmf.aspx. Beginning in November 2011, SSA no longer provides death
information to the National Technical Information Service to sell to public and private customers if a State record is
the only source of death. Social Security Act, § 205(r), 42 U.S.C. § 405(r).
15
     Presidential Memorandum - Enhancing Payment Accuracy Through a “Do Not Pay List,” June 18, 2010.




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)                      3
Any Title XVI recipient’s death recorded on the SSR but not on the Numident is not on the
DMF. As a result, Federal and private entities that rely solely on the DMF to detect deaths
would not know these individuals were deceased. Our review confirmed that as many as
182,165 deceased recipients were not on the Numident and therefore not on the DMF. This
missing death information could result in erroneous payments made by Federal benefit-paying
agencies that rely on the DMF to detect inaccurate or unreported deaths. The missing death
information will also hinder private industry and State and local governments’ ability to identify
and prevent identity fraud.

Missing Death Information Reduces the Effectiveness of SSA’s Earnings After
Death Program
SSA receives earnings reports from employers and records valid earnings on the MEF. To
determine the validity of an earnings report, SSA compares the name and SSN on the earnings
report to information on the Numident. In addition to verifying an individual’s name and SSN,
SSA reviews the Numident to determine whether the individual is deceased. Generally, when
the Numident contains a date of death and the year of death is before the year of the reported
earnings, the earnings are placed in SSA’s Earnings Suspense File as earnings after death (EAD)
records.

For any EAD record, SSA investigates and attempts to resolve the reported earnings. SSA sends
a notice to employers, employees, and self-employed individuals to verify employment. If the
employer states the individual is working for them but does not provide adequate information to
resolve the issue, SSA sends a notice requesting that the employee contact SSA to correct the
earnings information. If SSA can resolve the earnings, it records the wages to the proper SSN.
If the employer informs SSA the individual is deceased, SSA instructs the employer to refund the
employee's share of the Social Security taxes to the employee's estate or next of kin.

We found that since 2001, 1,886 deceased recipients had 11,171 earnings reports with total
earnings of about $311 million recorded on the MEF for 1 or more years after their deaths. This
occurred because their deaths were not on the Numident and therefore not detected by SSA’s
EAD program. The following table shows the year, number of earnings reports, and amount of
earnings on the MEF for 1 year or longer after the recipients’ deaths.




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)      4
       Table 1: Deceased Recipients with Reported Earnings 1 or More Years After Death
          Calendar Year                Number of Earnings Reports                      Amount of Earnings
              2001                              1,014                                    $24,082,680
              2002                              1,023                                    $25,224,581
              2003                              1,024                                    $25,762,353
              2004                              1,038                                    $27,370,895
              2005                              1,041                                    $28,334,021
              2006                              1,040                                    $29,282,869
              2007                              1,061                                    $30,256,853
              2008                              1,064                                    $31,693,934
              2009                                971                                    $29,939,076
              2010                                958                                    $29,688,008
              2011                                937                                    $29,307,181
                Total                            11,171 16                               $310,942,451

For 2011, 937 deceased recipients had reported earnings recorded on the MEF for 1 or more
years after their deaths. From this population, we randomly selected 50 for review. Our review
disclosed that 36 (72 percent) of these recipients incorrectly had earnings recorded on the MEF
after their deaths.

Individuals used deceased recipients’ SSNs or employers reported earnings using an incorrect
SSN for the 36 deceased recipients. For example, SSA had terminated payments to a recipient
who died in June 1985. However, earnings of $481,194 were recorded on the MEF for the
recipient between 1991 and 2011. In another example, a recipient who died in November 1993
had earnings of $218,355 recorded on the MEF from 2002 to 2011.

For the remaining 14 recipients, SSA had an incorrect SSN on the SSR. We found the earnings
reported for the 14 SSNs appeared to belong to another individual, and SSA needed to correct
the SSN on the SSR. For example, SSA incorrectly established an SSR with information for
a deceased recipient who was born on March 4, 1915 in Nettleton, Arkansas, and died in
April 1990 using the SSN of a man who was born on November 19, 1954 in Newport, Arkansas.

Based on our sample results, we expect most, if not all, of these 937 deceased recipients had
incorrect earnings recorded on the MEF for Calendar Year 2011 or the SSN was incorrect on the
SSR (see Appendix B).




16
     A deceased recipient may have earnings after death recorded for multiple years.




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)             5
Missing Death Information Reduces the Effectiveness of E-Verify
E-Verify is a Department of Homeland Security program that allows participating employers
to verify whether newly hired employees are authorized to work in the United States under
immigration law. E-Verify checks each new hire’s information against the information on the
Numident, including the new hire’s SSN, name, date of birth, death data, fraud indicator, and
U.S. citizenship. If the information the employers submitted does not match SSA’s records, SSA
sends a response to E-Verify, which in turn, generates a message to the employer that there is a
discrepancy with SSA’s records. This response is known as an SSA Tentative Nonconfirmation
(TNC).

The response to the employer includes the reason for the discrepancy and instructions for
notifying the employee. If the employee decides not to contest the TNC, the employer may
terminate the employee based on E-Verify. However, if the employee contests the TNC, he/she
has 8 Federal workdays to visit a local SSA field office to present the documentation required to
resolve the discrepancy.

We identified 113 E-Verify inquiries for 78 of the deceased recipients from 92 employers
between January 2010 and June 2011. These 78 deceased recipients had earnings recorded
on the MEF after their deaths. Since these recipients’ deaths were not on the Numident, the
responses to the employers were that the names matched the Numident, and death data did not
exist for these 78 individuals. Therefore, the E-Verify response did not indicate that individuals
using these 78 SSNs should not be authorized to work in the United States.

Missing Death Information Reduces the Effectiveness of HAVV System
The Help America Vote Act of 2002 requires that States verify the information of newly
registered voters for Federal elections. 17 The law requires that SSA assist States in verifying
the information of new voters who do not present a valid driver’s license during the voter
registration process. States submit the voter registrant’s name and date of birth, as well as
last the four digits of their SSN, to their Motor Vehicle Administration (MVA) for verification
with SSA. Accordingly, SSA verifies whether the information matches its records and reports
whether the registrant is deceased. To comply with the law, SSA developed the HAVV system,
which verifies the information submitted against the Numident and sends an indication of
whether these records show the individual as deceased.

For the individuals in our population, we identified 84 HAVV requests for 78 deceased
recipients between September 2007 and September 2009. 18 Since these recipients’ deaths were


17
     Pub. L. No. 107-252, Title III, § 303, 116 Stat. 1666, 1710 (October 29, 2002).
18
  As a follow-up to our July 2012 audit, Title II Deceased Beneficiaries Who Do Not Have Death Information on
the Numident (A-09-11-21171), we identified 106 HAVV requests for 105 Title II deceased beneficiaries who do
not have death information on the Numident. Since the death information was not on the Numident, the HAVV
response did not indicate these beneficiaries were deceased.




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)                 6
not on the Numident, the responses to the State MVAs were that the information matched the
Numident, and these 78 individuals were alive. Therefore, the response from HAVV did not
indicate these recipients were deceased. This would not have prevented an individual from
voting under a deceased recipient’s identity.

Reasons for Missing Numident Death Information
Upon receipt of a death report for a Title XVI recipient, SSA initiates action to terminate
payments and recover payments issued after death. If SSA receives a death report from a first
party (for example, family member or funeral director) or a State through the Electronic Death
Registration process, SSA terminates payments without verification. SSA verifies the death
reports it receives from all other sources. 19 When SSA terminates payments, DACUS processes
the death termination action. Finally, if the SSN, name, date of birth, and gender on the death
termination action match the Numident, SSA records the death on the Numident. 20 If a recipient
also has a Title II record, SSA records the death on the Numident if the identifying information
on the SSR, MBR, and Numident match.

Identifying Information Did Not Match
We reviewed our random sample of 50 deceased recipients to determine why their deaths were
not on the Numident. Our review disclosed that, except for the SSNs, identifying information on
the SSR and Numident for 20 (40 percent) of the recipients did not match. However, based on
our review of the records, we concluded that 19 recipients were, in fact, the same individuals.
Generally, the records did not match because the recipients had minor differences in names
and dates of birth on the SSR and Numident. Specifically, recipients had spelled their names
differently or used married names on one of the records or the year of birth differed by more
than 1 year while all other identifying information matched.

Identifying Information Matched Within SSA’s Accepted Tolerances
Of the 50 recipients in our sample, 30 (60 percent) had identifying information that matched
between the SSR and Numident. Of these,

•      11 recipients had identifying information on the SSR, MBR, and Numident that either
       matched exactly or was within SSA’s accepted tolerances;

•      4 recipients who did not have an MBR had identifying information on the SSR and Numident
       that matched exactly; and




19
  SSA, POMS, SI 02301.250.A (December 2, 2004), SI 02220.053 (August 12, 2009), and GN 02602.050.A
(January 23, 2012).
20
     SSA, POMS, GN 02602.060.B.2.c (May 13, 2011).




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)      7
•   15 recipients had identifying information on the SSR and Numident that either matched
    exactly or was within SSA’s accepted tolerances but did not match the MBR. Since the
    information did not match the MBR, the death information was not recorded on the
    Numident. However, all 15 recipients had been denied Title II benefits or their benefits
    had previously been terminated on the MBR.

Analysis of Recent Deaths Not Recorded on the Numident
SSA retains a record of changes to the Numident death information for 1 to 2 years. Therefore,
to determine why deceased recipients whose identifying information on the SSR and Numident
matched but who did not have their deaths recorded on the Numident, we provided 26 recently
deceased recipients to SSA for analysis. The analysis of the 26 recipients disclosed the deaths
were not on the Numident for the following reasons.

•   For five recipients, DACUS received requests from field offices or SSA’s payment system
    to prevent the death information from being recorded on the Numident. However, we
    determined these actions were erroneous.

•   PII matched the Numident and SSR but did not match the MBR for 17 recipients. Since
    the information did not match the MBR, the death information was not recorded on the
    Numident. However, all 17 recipients had been denied Title II benefits or their benefits had
    been terminated on the MBR.

•   There were name discrepancies between the death report, Numident, SSR, and/or MBR for
    three recipients.

•   For one recipient, the date of death on the SSR was later than the date on the death report,
    which prevented the death from being recorded on the Numident.

CONCLUSIONS
SSA needs to improve controls to ensure it records death information on the Numident for
deceased Title XVI recipients. Our review disclosed that as many as 182,165 deceased
recipients’ deaths were not on the DMF. We also found that as many as 937 deceased recipients
had earnings recorded on the MEF after their deaths. Finally, the absence of death information
on the Numident reduced the effectiveness of the E-Verify and HAVV systems. This resulted in
incorrect responses to employers and State MVAs for 78 deceased recipients.

SSA stated that it has taken actions to improve the recording of death information. In
September 2011, SSA implemented two projects to prevent the adjudication of a claim if
a discrepancy exists between the name, SSN, and date and place of birth on the claim and
Numident. The discrepancy must be resolved by correcting the claim or Numident. This should
improve the consistency between SSA’s payment records and Numident, thereby increasing the
accuracy of the DMF. In December 2012, SSA implemented a monthly match between the
Numident and MBR/SSR to identify data discrepancies between the Numident and these
databases. This should increase the accuracy of the death information in SSA’s records.


Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)    8
RECOMMENDATIONS
We recommend that SSA:

1. Analyze its death processing systems to ensure it records death information on the Numident
   and determine whether it can efficiently correct any of the 182,165 Title XVI recipient
   records identified by our audit.

2. Develop a cost-effective method for identifying deceased recipients who have death
   information on the SSR but not on the Numident. This could involve periodic matches
   between the SSR and Numident to detect and correct missing death information.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)   9
                                      APPENDICES




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)
Appendix A – SCOPE AND METHODOLOGY
From the Social Security Administration’s (SSA) Supplemental Security Record (SSR),
we obtained a data extract of Title XVI recipients whose payments SSA terminated for
death and whose SSR had a date of death. Using this extract, we identified a population of
182,165 deceased recipients who did not have a date of death recorded on the Numident as of
June 2012. The following table summarizes the annual number of deceased recipients without
death information on the Numident since 1980.

          Table A–1: Deceased Recipients Whose Death Was Not on the Numident
    Calendar Year             Number                       Calendar Year              Number
        1980                   2,348                           1997                  11,027
        1981                   2,273                           1998                  10,926
        1982                   2,237                           1999                   9,443
        1983                   2,143                           2000                   7,663
        1984                   2,093                           2001                   4,912
        1985                   2,163                           2002                   4,734
        1986                   1,911                           2003                   4,473
        1987                   2,093                           2004                   4,590
        1988                   8,790                           2005                   4,798
        1989                   9,823                           2006                   3,584
        1990                   7,200                           2007                   3,067
        1991                   7,057                           2008                   2,546
        1992                   8,682                           2009                   2,379
        1993                  10,000                           2010                   2,062
        1994                  10,127                           2011                   2,217
        1995                  12,326                             Total              182,165
        1996                  12,478


For Calendar Years 2001 through 2011, we identified 1,886 deceased recipients who had
11,171 earnings reports for 1 or more years after their deaths that were recorded on SSA’s
Master Earnings File (MEF). This included 1,118 recipients who had reported earnings in
Calendar Years 2010 and 2011. We verified the 1,118 deceased recipients with the Department
of Homeland Security’s E-Verify system and identified 113 inquiries for 78 of the deceased
recipients from 92 employers. In addition, there were Help America Vote Verification requests
for 78 deceased recipients between September 2007 and September 2009.




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)   A-1
To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, the Code of Federal Regulations,
    the U.S. Code, and SSA’s Program Operations Manual System;

•   interviewed SSA employees from the Offices of Earnings, Enumeration, and Administrative
    Systems and Retirement and Disability Policy; and

•   reviewed queries from SSA’s Master Beneficiary Record, SSR, Numident, and MEF.

We determined the computer-processed data from the SSR were sufficiently reliable for our
intended use. We conducted tests to determine the completeness and accuracy of the data.
These tests allowed us to assess the reliability of the data and achieve our audit objective.

We performed audit work in Richmond, California, and Baltimore, Maryland, between May and
November 2012. The entity audited was the Office of Systems under the Office of the Deputy
Commissioner for Systems.

We conducted our audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)   A-2
Appendix B – SAMPLING METHODOLOGY AND RESULTS
Missing Death Information on the Numident
From the Social Security Administration’s (SSA) Supplemental Security Record (SSR), we
obtained a data extract of Title XVI recipients whose payments SSA terminated for death
and who had a date of death on the SSR. Using this extract, we identified a population of
182,165 deceased recipients who did not have a date of death recorded on the Numident as of
June 2012. From this population, we selected a random sample of 50 recipients for review. Our
review confirmed that all 50 recipients were terminated for death on the SSR; however, there
was no death information recorded on SSA’s Numident. Based on our sample results, we expect
most, if not all, of these 182,165 deceased recipients did not have their death information on the
Numident.

Earnings After Death
For Calendar Years 2001 through 2011, we identified 1,886 deceased recipients who had
11,171 earnings reports for 1 or more years after their deaths that were recorded on SSA’s
Master Earnings File (MEF). This included 937 deceased recipients who had reported earnings
in Calendar Year 2011. From this population, we selected a random sample of 50 for review.
Our review disclosed that 36 (72 percent) of the 50 deceased recipients had erroneous earnings
recorded on the MEF after their deaths. In addition, we found that 14 (28 percent) of the
50 recipients had an incorrect SSN on the SSR. Based on our sample results, we expect most, if
not all, of these 937 recipients had earnings recorded on the MEF for Calendar Year 2011.




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)   B-1
           Appendix C – AGENCY COMMENTS




                                          SOCIAL SECURITY

MEMORANDUM

Date:      April 15, 2013                                                              Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Kate Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, "Title XVI Deceased Recipients Who Do Not Have
           Death Information on the Numident" (A-09-12-22132)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)   C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"TITLE XVI DECEASED RECIPIENTS WHO DO NOT HAVE DEATH
INFORMATION ON THE NUMIDENT" (A-09-12-22132)

We appreciate your acknowledgement of the advances we made to improve the accuracy of
death information on our records and in our death reporting process. As you note on page 8, in
fiscal year (FY) 2012 we implemented a number of projects designed to eliminate the potential
for future mismatched information between our payment records (Master Beneficiary Record
(MBR)/Supplemental Security Record (SSR)) and the Numident. We also designed a process to
discover missing death information between the MBR/SSR and the Numident on a monthly
basis. As described below, we continue our efforts to improve our posting of death information
and the processing of death alerts.

Recommendation 1

Analyze its death processing systems to ensure it records death information on the Numident.

Response

We recommend consolidating the first two recommendations as you did for the “Title II
Deceased Beneficiaries Who Do Not Have Death Information on the Numident” report
(A-09-11-21171). The recommendation would then read as follows:

“Analyze its death processing systems to ensure it records death information on the Numident
and determine whether it can efficiently correct any of the 182,165 Title XVI recipient records
identified by our audit.”

We agree with the modified recommendation. We are devoting systems and human resources to
develop a plan to analyze a redesign of the Death Alert, Control, and Update System (DACUS).
Our goal is to incorporate into the redesign an efficient way to correct any discrepancies between
our payment records and the Numident. The workgroup will convene beginning in April 2013
and we expect the planning and analysis phase to be complete this fiscal year (FY). Our
milestone for developing the DACUS rewrite is FY 2014.

In addition, we analyzed a sample of the records from the initial match from the Numident to
MBR/SSR Monthly Death Match to ensure the procedures we are developing for processing
these alerts cover situations technicians will encounter. We expect to fully implement the
monthly match in mid-June 2013, which will alert technicians to correct the mismatched records,
including the records identified in this audit review. We are continuing our analysis of why
death information on the Numident and payment records are sometimes inconsistent.

Recommendation 2

Determine whether it can efficiently correct any of the 182,165 Title XVI recipient records
identified by our audit.



Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)   C-2
Response

See response for recommendation 1.

Recommendation 3

Develop a cost-effective method for identifying deceased recipients who have death information
on the SSR but not on the Numident. This could involve periodic matches between the SSR and
Numident to detect and correct missing death information.

Response

We agree. Our goal is to incorporate into the DACUS redesign described in response to
recommendation 1 an efficient way to correct any discrepancies between our payment records
and the Numident.




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)   C-3
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Jack H. Trudel, Audit Manager

Vickie Choy, Senior Auditor




Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
